1a
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CURTIS ULLESEIT;
LISA WEHLMANN,
Plaintiffs-Appellees,

No. 19-15778
D.C. No.
3:17-cv-07026-JD

v.
BAYER HEALTHCARE
PHARMACEUTICALS INC.;
et al.,

MEMORANDUM*
(Filed Sep. 16, 2020)

Defendants-Appellants,
and
BAYER PHARMA AG, FKA
Bayer Schering Pharma AG;
et al.,
Defendants.
BETH WINKLER,
Plaintiff-Appellee,
v.

No. 19-15782
D.C. No.
3:18-cv-03077-JD

BAYER HEALTHCARE
PHARMACEUTICALS INC.;
et al.,
Defendants-Appellants,
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

2a
and
MCKESSON CORPORATION;
MCKESSON MEDICALSURGICAL INC.
Defendants.
Appeal from the United States District Court
for the Northern District of California
James Donato, District Judge, Presiding
Submitted September 14, 2020**
San Francisco, California
Before: WATFORD, FRIEDLAND, and MILLER, Circuit Judges.
Bayer HealthCare Pharmaceuticals Inc., Bayer
Corporation, and Bayer HealthCare LLC (collectively
“Bayer”) appeal from the district court’s order remanding ﬁve cases to California Superior Court.1 Plaintiffs
are California residents who have sued Bayer and
other defendants under state law for their role in manufacturing, marketing, and distributing the prescription drug Magnevist. We afﬁrm in part and dismiss in
part.

** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
1
Before the district court issued its remand order, the parties stipulated that plaintiffs’ motions to remand in each of the
ﬁve cases could be resolved based on the brieﬁng ﬁled in one of
them. These cases were then consolidated into this appeal. Two
cases remain before us.

3a
1. Bayer sought to remove this action under
§§ 1332 and 1442(a)(1) of Title 28 of the U.S. Code. The
district court held that neither provision provides a basis for removal. Under our recent decision in County of
San Mateo v. Chevron Corp., 960 F.3d 586 (9th Cir.
2020), we may review the district court’s remand order
only to the extent that it is based on § 1442(a)(1). See
id. at 595; see also Patel v. Del Taco, Inc., 446 F.3d 996,
998 (9th Cir. 2006). We therefore lack jurisdiction to review Bayer’s arguments concerning fraudulent joinder
and diversity jurisdiction under § 1332.
2. Section 1442(a)(1) “authorizes removal of a
civil action brought against any person ‘acting under’
an officer of the United States ‘for or relating to any
act under color of such office.’” Leite v. Crane Co., 749
F.3d 1117, 1120 (9th Cir. 2014) (quoting 28 U.S.C.
§ 1442(a)(1)). To invoke the statute, Bayer must show
that (1) it is a “person” within the statute’s meaning,
(2) a causal nexus exists between plaintiffs’ claims
and the actions it took under a federal officer’s direction, and (3) it has a “colorable” federal defense to
plaintiffs’ claims. See Fidelitad, Inc. v. Insitu, Inc., 904
F.3d 1095, 1099 (9th Cir. 2018). The ﬁrst requirement
is not in dispute as “corporations are ‘person[s]’ under
§ 1442(a)(1).” Goncalves ex rel. Goncalves v. Rady
Children’s Hosp. San Diego, 865 F.3d 1237, 1244 (9th
Cir. 2017). To satisfy the second requirement, Bayer
must show both that it acted under a federal officer
and that those actions were causally connected to
plaintiffs’ claims. See id. The central dispute in this
case is whether Bayer acted under the direction of the

4a
Food and Drug Administration (“FDA”) while undertaking the actions that are the subject of plaintiffs’
claims. We conclude that it did not.
For Bayer’s actions to constitute “acting under” the
FDA, Bayer’s efforts to assist or otherwise help carry
out the FDA’s duties or tasks must go beyond “simply
complying with the law.” See Fidelitad, 904 F.3d at
1100 (quoting Watson v. Philip Morris Cos., 551 U.S.
142, 152 (2007)). Bayer argues that it acted under the
FDA by advising two FDA committees about gadolinium-based contrast agents and because plaintiffs’
claims are based on the defectiveness of warnings approved by the FDA after those same committee meetings, in which Bayer participated. We disagree. Bayer’s
arguments fail because there is no evidence it acted
under the FDA’s “subjection, guidance, or control.” Watson, 551 U.S. at 151 (citation omitted). Unlike the “paradigm” of “a private person acting under the direction
of a federal law enforcement ofﬁcer,” Fidelitad, 904
F.3d at 1099, or the circumstance of government contractors, see, e.g., Leite, 749 F.3d at 1123-24, here there
is nothing “distinct from the usual regulator/regulated
relationship,” Watson, 551 U.S. at 157. By allowing
Bayer to voluntarily participate in the FDA advisory
committees, the FDA neither delegated any legal authority to Bayer, id. at 156, nor “shar[ed] . . . day-to-day
operating responsibility” with Bayer, Goncalves, 865
F.3d at 1246 (citation omitted). As a result, Bayer did
not “act under” the FDA.
Even if Bayer could establish that it “acted under”
the FDA, Bayer cannot establish that participating in

5a
the advisory committees is causally connected to plaintiffs’ claims. Signiﬁcantly, the FDA did not direct
Bayer’s alleged efforts to conceal the risks of developing Gadolinium Deposition Disease when individuals
with normal or near-normal kidney function – like
plaintiffs – are injected with Magnevist, a gadoliniumbased contrast agent manufactured by Bayer for MRI
scans. Nor did the FDA prohibit Bayer from considering more robust warning labels for Magnevist. The allegedly defective warning labels did not occur “because
of what [Bayer] w[as] asked to do by the Government.”
Goncalves, 865 F.3d at 1245 (citation and emphasis
omitted). Bayer thus fails to establish that a causal
nexus exists between any actions taken under the FDA
and plaintiffs’ claims.2
For these reasons, the district court properly rejected Bayer’s attempt to remove this action under 28
U.S.C. § 1442(a)(1).
Bayer’s motion for judicial notice, ﬁled on September 10, 2019 (Docket No. 18), is DENIED.
DISMISSED in part and AFFIRMED in part.

2

Bayer urges us to reconsider our case law on the “causal
nexus” requirement due to Congress’s 2011 amendment of 28
U.S.C. § 1442. We do not think there is a meaningful difference
between the causal nexus requirement articulated by our pre2011 cases and the requirement imposed by the amended statute.
In any event, because we conclude that Bayer did not act under a
federal ofﬁcer, our disposition does not depend on whether or not
those acts are causally connected to plaintiffs’ claims.

6a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
KATHLEEN GEISSE, et al.,
Plaintiffs,

Case No.
17-cv-07026-JD
ORDER RE MOTIONS
TO REMAND

v.

BAYER HEALTHCARE
Re: Dkt. Nos. 38
PHARMACEUTICALS INC.,
(17-7026); 24 (18-811);
et al.,
19 (18-3077); 15
Defendants.
(18-4568); 23 (18-6015)
PATRICIA YOUNG,
Plaintiff,

Case No.
18-cv-00811-JD

v.
BAYER HEALTHCARE
PHARMACEUTICALS INC.,
et al.,
Defendants.
BETH WINKLER,
Plaintiff,
v.
BAYER HEALTHCARE
PHARMACEUTICALS INC.,
et al.,
Defendants.

Case No.
18-cv-03077-JD

7a
JANE DOE,
Plaintiff,

Case No.
18-cv-04568-JD

v.
BAYER HEALTHCARE
PHARMACEUTICALS INC.,
et al.,
Defendants.
LINDA MANSOLILLO,
Plaintiff,

Case No.
18-cv-06015-JD

v.
BAYER HEALTHCARE
PHARMACEUTICALS INC.,
et al.,
Defendants.
Plaintiffs originally ﬁled these related product liability cases in California Superior Court after exposure to Magnevist, a medical contrast agent used to
enhance MRI images. Defendant Bayer Healthcare
Pharmaceuticals Inc. (“Bayer”) manufactures Magnevist and removed the cases to this Court on alleged
diversity and “federal ofﬁcer” grounds. Dkt. No. 1.
Plaintiffs seek a remand to state court. Dkt. Nos. 38
(17-7026); 24 (18-811); 19 (18-3077); 15 (18-4568); 23
(18-6015). The parties stipulated to submit the remand
question for all of the related cases on the arguments
in Doe v. Bayer HealthCare Pharmaceuticals Inc., Case

8a
No. 18-cv-4568-JD. See Dkt. Nos. 59-61 in 17-7026.1
The Court concludes that these cases were removed
improvidently and without jurisdiction, and remands
them to the California Superior Court pursuant to 28
U.S.C. Section 1447(c).
BACKGROUND
As alleged in the complaints, Magnevist is formulated with gadolinium, a toxic heavy metal that is not
normally present in the human body. Magnevist is
marketed as a contrast agent that is injected intravenously to enhance and improve the quality of MRI images. Plaintiffs allege that they developed gadolinium
deposition disease (“GDD”) from being injected with
Magnevist. GDD is said to cause tremors and mental
confusion, damage to kidneys, muscles and bone, and
other serious health problems. It typically occurs in individuals who had normal kidney functions before injection, in contrast with another gadolinium-linked
disease called Nephrogenic Systemic Fibrosis, which
occurs mainly in patients who had pre-existing renal
failure. The complaints allege claims for strict product
liability and negligence for defendants’ failure to warn
patients and healthcare professionals about the risks
of GDD and other complications caused by Magnevist.
See generally Dkt. No. 1-1.

1

All record citations are to Doe, Case No. 18-4568, unless
stated otherwise. Plaintiff Doe ﬁled under a pseudonym, although
a request to proceed pseudonymously has not been ﬁled or approved by the Court.

9a
Bayer and its afﬁliates manufactured, marketed
and sold Magnevist throughout the United States and
in California. Defendant McKesson Corporation (“McKesson”) and its afﬁliates distributed Magnevist in
California. Plaintiffs are California residents, and allege that they were injected with Magnevist made by
Bayer and distributed by McKesson to them in California.
Plaintiffs sued in California Superior Court under
California products liability law. They alleged, with no
opposition here, that McKesson and another defendant
distributor, Merry X-Ray Chemical Corp., are incorporated or have a principal place of business in California. Bayer is an out-of-state entity, and removed the
cases to federal court on diversity grounds. Bayer contends that complete diversity is present because
McKesson was fraudulently joined and should be disregarded for removal purposes.2 Bayer also says that
removal was proper under 28 U.S.C. Section 1442(a),
which permits removal of cases involving the United
States and its agencies and ofﬁcers, and those acting
under the control of federal ofﬁcials.
DISCUSSION
As in all federal cases, the foundational principle
here is that the jurisdiction of the federal courts is
2

This order uses McKesson as a proxy for Merry X-Ray in
light of the parties’ stipulation that the brieﬁng in Doe, which refers only to McKesson, will resolve all the remand disputes. The
two distributors are similarly situated factually.

10a
limited to what is authorized by the Constitution and
statute. Kokkonen v. Guardian Life Ins. Co. of Am., 511
U.S. 375, 377 (1994). Accordingly, removal is appropriate only when a case presents a federal question or involves diversity of citizenship and meets the statutory
amount in controversy. 28 U.S.C. §§ 1331, 1332. There
is a strong presumption against removal, and the removal statute is strictly construed against ﬁnding federal jurisdiction. Gaus v. Miles, 980 F.2d. 564, 566 (9th
Cir. 1992). Any doubts about the propriety of removal
should be resolved in favor of a remand to state court.
Matheson v. Progressive Specialty Ins. Co., 319 F.3d
1089, 1090 (9th Cir. 2003). Principles of federalism,
comity, and respect for the state courts also counsel
strongly in favor of scrupulously conﬁning removal jurisdiction to the precise limits that Congress has deﬁned. Shamrock Oil & Gas Corp. v. Sheets, 313 U.S.
100, 109 (1941). The defendant always bears the burden of demonstrating that removal was proper. Gaus,
980 F.2d at 566.
As a starting position, Bayer contends that removal was appropriate on the basis of diversity under
Section 1332. Diversity removal requires complete diversity, which means that each plaintiff must have a
different citizenship from each defendant. Caterpillar
Inc. v. Lewis, 519 U.S. 61, 68 (1996). Since the complaints show on their face that plaintiffs and McKesson are non-diverse, Bayer can remove under Section
1332 only if it establishes that McKesson was fraudulently joined. Grancare, LLC, v. Thrower by and Through
Mills, 889 F.3d 543, 548 (9th Cir. 2018). If so, the

11a
presence of the non-diverse party can be disregarded
and not counted against diversity. Morris v. Princess
Cruises, Inc., 236 F.3d 1061, 1067 (9th Cir. 2001).
“There are two ways to establish fraudulent joinder: ‘(1) actual fraud in the pleading of jurisdictional
facts, or (2) inability of the plaintiff to establish a cause
of action against the non-diverse party in state court.”
Grancare, 889 F.3d at 548 (quoting Hunter v. Philip
Morris, USA, 582 F.3d 1039, 1044 (9th Cir. 2009)). Consequently, short of proving that the plaintiff committed
actual fraud in pleading jurisdictional facts, a defendant urging fraudulent joinder must show that the nondiverse party who was “ ‘joined in the action cannot be
liable on any theory.’ ” Id. (quoting Ritchey v. Upjohn
Drug Co., 139 F.3d 1313, 1318 (9th Cir. 1998)). Our circuit has emphasized that this inquiry is not the same
as the Rule 12(b)(6) review for failure to state a plausible claim. Id. at 549. It has a lower bar and requires
only that “there is a ‘possibility that a state court would
ﬁnd that the complaint states a cause of action against
any of the [non-diverse] defendants.’ ” Id. (quoting
Hunter, 582 F.3d at 1046) (emphasis added in Grancare).
This means that the joinder of a non-diverse party will
not necessarily be deemed fraudulent even if the claim
could be dismissed. Id. In effect, the “possibility” standard is akin to the “wholly insubstantial and frivolous
standard for dismissing claims under Rule 12(b)(1).”
Id. at 549-50 (quotation omitted). If there is any possibility above the trivial or frivolous that the plaintiff
can state a claim against the non-diverse defendant,
“the federal court must find that the joinder was

12a
proper and remand the case to state court.” Hunter,
582 F.3d at 1046 (quotation omitted).
There is a “ ‘general presumption against [ﬁnding]
fraudulent joinder,’ ” which adds to the usual presumption against removal in all cases under Section 1332
and imposes a particularly heavy burden on the defendant to prove. Grancare, 889 F.3d at 548 (quoting
Hunter, 582 F.3d at 1046). The defendant has some leeway to present facts outside the complaint, but the
complaint is usually the best guide in determining
whether joinder was fraudulent, and in any event the
defendant must prove fraudulent joinder by clear and
convincing evidence. Id. at 549; Hamilton Materials,
Inc. v. Dow Chem. Corp., 494 F.3d 1203, 1206 (9th Cir.
2007).
Bayer has not established fraudulent joinder under either of the dispositive tests. It appears to make a
single, rather tentative stab at plaintiff Doe under the
ﬁrst test by suggesting that she actually resides in
New York and not California. Dkt. No. 18 at 3-4. In response, Doe represented that she does, in fact, reside
in California, and indicated that Bayer appeared to be
relying on outdated Internet information. Dkt. No. 19
at 4. Bayer has not proffered clear and convincing evidence of actual jurisdictional fraud on Doe’s part, or
that she is not a citizen of California. To the extent
there are any doubts about removal under this prong,
they are of course construed in favor of a remand.
With respect to the second test, Bayer does not
meaningfully dispute that plaintiffs’ claims against

13a
McKesson have at least a non-frivolous possibility of
stating a cause of action in California state court.
Plaintiffs allege that McKesson has its main ofﬁce in
San Francisco, California, and distributed and sold
Magnevist generally throughout California, and speciﬁcally to plaintiffs. See, e.g., Dkt. No. 1-1 ¶¶ 11-18, 36.
Plaintiffs further allege that McKesson’s failure to
warn about the risks associated with Magnevist was
the legal cause of their injuries. See, e.g., id. ¶¶ 39-46,
73. California law does not, by any means, rule out
plaintiffs’ strict liability and negligence claims against
McKesson as a participant in the chain of distribution
of the allegedly defective Magnevist product. See, e.g.,
Bostick v. Flex Equip. Co., 147 Cal. App. 4th 80, 88
(2007). The vast majority of other district courts that
have considered this question have reached the same
conclusion. See Dodich v. Pfizer Inc., 18-cv-02764-WHA,
2018 WL 3584484, at *1 (July 26, 2018 N.D. Cal. 2018)
(collecting cases); Hatherley v. Pﬁzer, Inc., 2:13-00719
WBS, 2013 WL 3354458, at *2 (July 3, 2013 E.D. Cal.)
(same). The sound reasoning of these many courts in
ﬁnding that a products liability claim in similar circumstances is, at a minimum, a possibility in California state court makes short work of Bayer’s suggestion
to the contrary.
Bayer’s mention of potential preemption, Dkt. No.
18 at 7, does not discount this conclusion in any way.
Bayer does little more than ﬂag preemption as a concept, and does not provide a meaningful discussion
about how it might be germane to the removal question
under governing law. It has an even bigger problem in

14a
that preemption goes to the merits of the plaintiff ’s
case and entails a degree of analysis that does not render a state law claim obviously barred or frivolous for
fraudulent joinder purposes. See Hunter, 582 F.3d at
1045. Bayer does not identify a California case saying preemption would be obvious here, and the lone
Supreme Court case it cites involved generic drug
manufacturers and has not been extended in binding
precedent to distributors like McKesson. See PLIVA,
Inc. v. Mensing, 564 U.S. 604 (2011). At best, Bayer
merely says that preemption might be found, which
necessarily admits that it might not be found, and so
does not foreclose the possibility that plaintiffs have a
viable claim in state court.
Bayer devotes considerably more effort to attacking plaintiffs’ supposed motivation for joining McKesson as a defendant. See, e.g., Dkt. No. 18 at 8-10. Bayer
points to other cases where it says McKesson was
named as a defendant and subsequently dismissed or
not seriously pursued for settlement or judgment. In
Bayer’s view, this indicates that plaintiffs sued it here
solely with the intent of defeating removal, and so its
presence should be ignored.
The argument is not well taken. A plaintiff ’s motives for joining a defendant play no role in the fraudulent joinder tests established by Grancare and Hunter,
and Bayer has not shown otherwise. Its focus on motive is all the more doubtful because the Supreme
Court has long held that a plaintiff has “an absolute
right” to sue any and all joint tortfeasors it chooses, regardless of motive, and a charge of fraudulent joinder

15a
in that context “would be bad on its face.” Illinois Cent.
R.R. Co. of Ill. v. Sheegog, 215 U.S. 308, 316 (1909); see
also Chicago, Rock Island & Paciﬁc Railway Co. v.
Schwyhart, 227 U.S. 184, 193-94 (1913) (motive of
plaintiff irrelevant for removal purposes); Albi v. Street
& Smith Publications, Inc., 140 F.2d 310, 312 (9th Cir.
1944) (same). Even if an inquiry into a plaintiff ’s subjective intent were appropriate, which is not the case,
Bayer has not proffered clear and convincing evidence
of bad intent, whatever that might be. Plaintiffs have
adduced facts indicating McKesson was actively litigated against in some of the other cases, and that some
of the dismissals mentioned by Bayer happened because discovery showed that McKesson had not distributed the Magnevist used by the plaintiffs in those
cases. See Dkt. No. 15-2 ¶¶ 3, 5; Dkt. No. 19 at 5.
That resolves Bayer’s arguments for removal on
the basis of fraudulent joinder and diversity. Bayer’s
next argument is under 28 U.S.C. Section 1442(a),
which permits the removal of a state-court action
against an ofﬁcer, or a person acting under an ofﬁcer,
of the United States for an act under color of ofﬁce.
Bayer contends that plaintiffs’ failure-to-warn claims
arise out of conduct Bayer took under the direction of
the FDA, and so removal under Section 1442(a) was
proper. Dkt. No. 18 at 12-14.
This argument, too, is not well taken. As the plain
language of Section 1442(a) indicates, it is intended to
protect federal ofﬁcers from interference with their ofﬁcial duties through state-court litigation. Arizona v.
Manypenny, 451 U.S. 232, 241-42 (1981). The statute

16a
“responds to three general concerns: (1) ‘State-court
proceedings may reﬂect ‘local prejudice’ against unpopular federal laws or federal ofﬁcials’; (2) ‘States hostile
to the Federal Government may impede’ federal law;
and (3) ‘States may deprive federal ofﬁcials of a federal
forum in which to assert federal immunity defenses.’ ”
Fidelitad, Inc. v. Insitu, Inc., 904 F.3d 1095, 1099 (9th
Cir. 2018) (quoting Watson v. Philip Morris Cos., 551
U.S. 142, 150 (2007)). Section 1442 is liberally construed to address these issues, but is not limitless in
scope. Id. (citing Watson, 551 U.S. at 147).
To remove under the section, Bayer must show
“that (a) it is a ‘person’ within the meaning of the statute; (b) there is a causal nexus between its actions,
taken pursuant to a federal ofﬁcer’s directions, and
plaintiff ’s claims; and (c) it can assert a ‘colorable federal defense.’ ” Goncalves By & Through Goncalves v.
Rady Children’s Hosp. San Diego, 865 F.3d 1237, 1244
(9th Cir. 2017) (citation omitted).
Bayer has not shown that any of this might justify
removal here. Bayer, a global public pharmaceuticals
company, is decidedly not an agency or ofﬁcer of the
United States. The linchpin of its removal theory under Section 1442(a) is that it was acting pursuant to
the directions of a federal ofﬁcer in undertaking the
actions that are the subject of this lawsuit. Dkt. No. 18
at 12-14. For a private entity to be “acting under” a federal ofﬁcer, the private entity must be involved in “an
effort to assist, or to help carry out, the duties or tasks
of the federal superior.” Watson, 551 U.S. at 152) (emphasis omitted). “The paradigm is a private person

17a
acting under the direction of a federal law enforcement
ofﬁcer.” Fidelitad, 904 F.3d at 1099; see also Watson,
551 U.S. at 151 (“That relationship typically involves
‘subjection, guidance, or control.’ ”) (quotation omitted).
No federal ofﬁcer directed Bayer not to warn patients or healthcare professionals about the potential
risks of Magnevist and link to GDD. Bayer says its disclosures were made in accordance with FDA laws and
regulations, Dkt. No. 18 at 13-14, but “ ‘simply complying with the law’ does not bring a private actor within
the scope of the federal ofﬁcer removal statute.” Fidelitad, 904 F.3d at 1100 (quoting Watson, 551 U.S. at 152
(emphasis omitted)). Bayer’s heavy reliance on Leite v.
Crane Co., 749 F.3d 1117 (9th Cir. 2014), does not lead
to a different result. In Leite, a military contractor was
permitted to remove a state-court case alleging a failure to warn about asbestos hazards in naval equipment because senior ofﬁcers in the United States Navy
ﬁled declarations stating that the Navy exercised complete control over the form and content of all warnings
made by contractors, and that contractors could not
include warnings unless speciﬁcally required and approved by the Navy. Id. at 1123. Bayer has not proffered any similar evidence here for its alleged failure
to warn about Magnevist. The fact that Bayer and
other pharmaceutical companies might be highly regulated also does not, it itself, constitute a basis for removal under Section 1442(a). Watson, 551 U.S. at 153;
Fidelitad, 904 F.3d at 1100. To hold otherwise on any
of these points, or to read Section 1442(a) as broadly as
Bayer urges, would allow removal to federal court in

18a
circumstances far beyond anything Congress intended.
See Lu Junhong v. Boeing Co., 792 F.3d 805, 808-09
(7th Cir. 2015).
So too for the fact that Bayer participated in certain FDA advisory committees. Its participation was
entirely free and voluntary, see, e.g., Dkt. No. 1 ¶¶ 5663, and hardly to product of direction or compulsion by
the FDA.
This is enough to end the Section 1442(a) analysis,
but for the sake of completion, Bayer also has not
shown a colorable federal defense of any import to removal. It claims to have “numerous” such defenses but
does nothing more than name-drop them with no discussion of whether and how they might apply here. See
Dkt. No. 18 at 14-15.
CONCLUSION
The cases were removed improvidently and without jurisdiction. They are remanded to the California
Superior Court for the City and County of San Francisco pursuant to 28 U.S.C. Section 1447(c).
IT IS SO ORDERED.
Dated: March 18, 2019
/s/ James Donato
JAMES DONATO
United States District Judge

19a
U.S. District Court
California Northern District
Notice of Electronic Filing
The following transaction was entered on 12/11/2018
at 1:35 PM PST and ﬁled on 12/11/2018
Case Name:

Geisse et al v. Bayer Healthcare
Pharmaceuticals Inc. et al
3:17-cv-07026-JD

Case Number:
Filer:
Document Number: 61(No document attached)
Docket Text:

ORDER. In response to the parties’ submissions, Dkt.
Nos. 59, 60 in 17-cv-7026, the Court will decide the
remand issue in all the related cases based on the current brieﬁng in Doe v. Bayer HealthCare Pharmaceuticals Inc., 18-cv-4568. The Court ﬁnds the motion to
remand to be suitable for decision without oral argument and will issue a decision on the papers. Civ. L.R.
7-1(b). Signed by Judge James Donato on 12/11/2018.
(This is a text-only entry generated by the court. There
is no document associated with this entry.) (jdlc1S,
COURT STAFF) (Filed on 12/11/2018)

20a
Case Name:

Young v. Bayer HealthCare
Pharmaceuticals Inc. et al
3:18-cv-00811-JD

Case Number:
Filer:
Document Number: 38(No document attached)
Docket Text:

ORDER. In response to the parties’ submissions, Dkt.
Nos. 59, 60 in 17-cv-7026, the Court will decide the
remand issue in all the related cases based on the current brieﬁng in Doe v. Bayer HealthCare Pharmaceuticals Inc., 18-cv-4568. The Court ﬁnds the motion to
remand to be suitable for decision without oral argument and will issue a decision on the papers. Civ. L.R.
7-1(b). Signed by Judge James Donato on 12/11/2018.
(This is a text-only entry generated by the court. There
is no document associated with this entry.) (jdlc1S,
COURT STAFF) (Filed on 12/11/2018)
Case Name:

Winkler v. Bayer HealthCare
Pharmaceuticals Inc. et al
3:18-cv-03077-JD

Case Number:
Filer:
Document Number: 35(No document attached)
Docket Text:

ORDER. In response to the parties’ submissions, Dkt.
Nos. 59, 60 in 17-cv-7026, the Court will decide the
remand issue in all the related cases based on the current brieﬁng in Doe v. Bayer HealthCare Pharmaceuticals Inc., 18-cv-4568. The Court ﬁnds the motion to
remand to be suitable for decision without oral argument and will issue a decision on the papers. Civ. L.R.

21a
7-1(b). Signed by Judge James Donato on 12/11/2018.
(This is a text-only entry generated by the court. There
is no document associated with this entry.) (jdlc1S,
COURT STAFF) (Filed on 12/11/2018)
Case Name:

Lewis v. Bayer Healthcare
Pharmaceuticals Inc. et al
3:18-cv-04146-JD

Case Number:
Filer:
Document Number: 33(No document attached)
Docket Text:

ORDER. In response to the parties’ submissions, Dkt.
Nos. 59, 60 in 17-cv-7026, the Court will decide the
remand issue in all the related cases based on the current brieﬁng in Doe v. Bayer HealthCare Pharmaceuticals Inc., 18-cv-4568. The Court ﬁnds the motion to
remand to be suitable for decision without oral argument and will issue a decision on the papers. Civ. L.R.
7-1(b). Signed by Judge James Donato on 12/11/2018.
(This is a text-only entry generated by the court. There
is no document associated with this entry.) (jdlc1S,
COURT STAFF) (Filed on 12/11/2018)

22a
Case Name:

Doe v. Bayer HealthCare Pharmaceuticals Inc. et al
3:18-cv-04568-JD

Case Number:
Filer:
Document Number: 31(No document attached)
Docket Text:

ORDER. In response to the parties’ submissions, Dkt.
Nos. 59, 60 in 17-cv-7026, the Court will decide the
remand issue in all the related cases based on the current brieﬁng in Doe v. Bayer HealthCare Pharmaceuticals Inc., 18-cv-4568. The Court ﬁnds the motion to
remand to be suitable for decision without oral argument and will issue a decision on the papers. Civ. L.R.
7-1(b). Signed by Judge James Donato on 12/11/2018.
(This is a text-only entry generated by the court. There
is no document associated with this entry.) (jdlc1S,
COURT STAFF) (Filed on 12/11/2018)
Case Name:

Mansolillo v. Bayer HealthCare
Pharmaceuticals Inc. et al
3:18-cv-06015-JD

Case Number:
Filer:
Document Number: 30(No document attached)
Docket Text:

ORDER. In response to the parties’ submissions, Dkt.
Nos. 59, 60 in 17-cv-7026, the Court will decide the
remand issue in all the related cases based on the current brieﬁng in Doe v. Bayer HealthCare Pharmaceuticals Inc., 18-cv-4568. The Court ﬁnds the motion to
remand to be suitable for decision without oral

23a
argument and will issue a decision on the papers.
Civ. L.R. 7-1(b). Signed by Judge James Donato on
12/11/2018. (This is a text-only entry generated by the
court. There is no document associated with this entry.)
(jdlc1S, COURT STAFF) (Filed on 12/11/2018)

